                    United States Attorney Richard S. Hartunian
                           Northern District of New York

FOR IMMEDIATE RELEASE                                CONTACT:       Robert Storch or
MONDAY, APRIL 16, 2012                                              Edward P. Grogan
http://www.usdoj.gov/usao/nyn                                       (518) 431-0247


           TROY WOMAN CONVICTED OF BANK FRAUD AND FORGERY
               Conviction Followed a Four Day Jury Trial in Albany, NY


       UNITED STATES ATTORNEY RICHARD S. HARTUNIAN announced that KENITA

HOKE was convicted late Friday, April 13, 2012, on charges of felony bank fraud and passing a

forged United States treasury check. The convictions followed a four day jury trial before Senior

United States District Judge Thomas J. McAvoy in Albany, New York. HOKE, age 44, of Troy,

New York, will be sentenced on August 14, 2012 in Albany. As a result of the convictions,

HOKE faces a total maximum sentence of 40 years imprisonment, supervised release of up to 5

years, and a maximum fine of up to $1,250,000.

       Evidence presented during the trial showed that on September 24, 2009 HOKE

knowingly deposited a forged United States treasury check, issued in the name of another

person, in the amount of $10, 190.73, into a custodial account that she controlled at First

Niagara Bank on Second Street in Troy, NY. HOKE then withdrew a total of $10,000 in cash

from the account on September 28, 2009 at two different branches of First Niagara Bank.

       The investigation was conducted by the United States Secret Service and Social Security

Administration, Office of Inspector General, Albany, New York.



                                                     LOCAL CONTACT:
                                                     Edward P. Grogan
                                                     Assistant U.S. Attorney
                                                     518-431-0247
